                              Report Template Version = 03-01-05_rev.07




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





STATUS OF THE RURAL HEALTH 

     CLINIC PROGRAM





                     Daniel R. Levinson

                     Inspector General 


                      August 2005

                     OEI-05-03-00170

                                                          Report Template Version = 03-01-05_rev.07




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
                                                                                        Report Template Version = 03-01-05_rev.07




Δ   E X E C U T I V E                                  S U M M A R Y                               



                  OBJECTIVE
                  To follow up on previous Office of Inspector General (OIG)
                  recommendations concerning the appropriate location of Rural Health
                  Clinics (RHC).


                  BACKGROUND
                  In 1996, OIG and the Government Accountability Office (GAO) issued
                  reports that raised concerns about the inappropriate growth and
                  location of RHCs. Both offices recommended changes that would ensure
                  that RHCs are located in areas that would otherwise be underserved.
                  Because of these reports, Congress, as part of the Balanced Budget Act
                  of 1997 (BBA), amended section 1861(aa)(2) the Social Security Act to
                  remove the permanent designation of RHCs and require timely review
                  of shortage-designation areas. However, to date, the Centers for
                  Medicare & Medicaid Services (CMS) has no regulations implementing
                  the BBA’s required changes.

                  To be eligible for RHC status, a clinic must be located in a “rural” and
                  “underserved” area. The Rural Health Clinic Services Act of 1977 (the
                  Act) defines “rural” as an area that the Bureau of the Census (Census)
                  categorizes as a nonurbanized area. An “underserved” area is one that
                  the Health Resources and Services Administration (HRSA) designated
                  as medically underserved or experiencing a physician shortage. For
                  shortage areas to be eligible under the RHC Program, the BBA required
                  that HRSA review and update these areas every 3 years.

                  Under Medicare and Medicaid, RHCs receive cost-based reimbursement
                  or a capped amount that is normally higher than a typical physician
                  office visit. Payments for RHC services continue to increase and
                  exceeded $630 million in calendar year 2002.


                  FINDINGS
                  Two hundred seventy-nine RHCs are located in areas that HRSA has
                  not designated as shortage areas or that Census has designated as
                  urbanized areas. Sixty-one percent (169) of these RHCs are located in
                  areas that HRSA has not designated as shortage areas. The remaining
                  39 percent (110) are located in urbanized areas defined by Census.
                  Under the BBA, these RHCs would no longer maintain their
                  designations as RHCs unless they receive exceptions as essential
                  providers. CMS issued final regulations for the exception process.

OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                           i
                                                                                         Report Template Version = 03-01-05_rev.07




E X E C U T I V E                       S U         M M A R Y


                   However, because of a conflict with the Medicare Prescription Drug,
                   Improvement, and Modernization Act of 2003, CMS withdrew the
                   regulations. In the absence of regulations, it is unclear how many of
                   these 279 RHCs would meet the essential provider exception.
                   Another 946 RHCs are located in shortage-designated areas that
                   HRSA has not reviewed or updated within a 3-year period. The BBA
                   requires RHCs to be located in shortage areas that HRSA has
                   designated or updated within the last 3 years. However, HRSA has not
                   updated the shortage area designations for 26 percent of Health
                   Professional Shortage Areas and 94 percent of the Medically
                   Underserved Areas (MUA) where RHCs are located. As a result,
                   28 percent (946) of all RHCs are located in areas that do not meet the
                   3-year HRSA review requirement.
                   Rural and shortage criteria do not effectively identify areas that are
                   truly rural and medically underserved. Although most RHCs are
                   located in areas that meet the RHC Act’s definition of rural,
                   approximately 39 percent of RHCs are located in areas that Census
                   considers urban because Census uses a broader definition of urban
                   areas that includes urban clusters. HRSA’s health care shortage-
                   designation methods do not adequately measure medical underservice
                   in that they exclude certain primary care practitioners and rely on an
                   Index of Medical Underservice that GAO identified as being unreliable.
                   Current criteria result in RHC participation in areas with already
                   existing health care delivery systems. RHCs are not required to
                   demonstrate how they will improve access for Medicare and Medicaid
                   beneficiaries. Consequently, RHCs can establish themselves near
                   existing medical infrastructure with ease. For example, 90 percent of
                   RHCs had three or more primary care provider sites within 25 miles of
                   their locations. Two hundred sixteen RHCs (6 percent) are located in
                   counties in metropolitan areas with populations over 1 million.


                   RECOMMENDATIONS
                   Over 7 years have passed since the enactment of the BBA and many of
                   the problems identified in the previous OIG and GAO reports continue
                   to exist. Attempts by CMS and HRSA to issue regulations to address
                   the problems identified by these reports have not been successful.
                   Because of the involvement by both HRSA and CMS with the RHC
                   Program, OIG makes recommendations to both of these agencies.



 OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          ii
                                                                                        Report Template Version = 03-01-05_rev.07




E X E C U T I V E                          S U           M M A R Y

                  Recommendations for HRSA
                  HRSA should review shortage designations within the requisite
                  3-year period. Because the RHC Program’s success in providing care to
                  the rural underserved depends on the timeliness of HRSA’s
                  designations, HRSA should review its designations made more than
                  3 years ago to assess the need for continued designation.
                  HRSA should publish regulations to revise its shortage-designation
                  criteria. HRSA should issue regulations that would improve its
                  shortage-designation criteria. These regulations should consider
                  expanding the definition of a practitioner to appropriately account for
                  the care that nurse practitioners and physician assistants provide.
                  HRSA should also consider revising the MUA’s Index of Medical
                  Underservice to include more precise measures of health status.
                  Recommendations for CMS
                  CMS should issue regulations to ensure that RHCs determined to be
                  essential providers remain certified as RHCs. While we recognize
                  that CMS did issue final regulations for the RHC Program and had to
                  withdraw them, the lack of final regulations allows RHCs that no longer
                  meet eligibility criteria to continue to receive cost-based reimbursement
                  or a capped amount.
                  CMS should seek legislative authority or administratively require
                  RHC applicants to document need and impact on access to health
                  care in rural underserved areas. Because current law limits CMS’s
                  ability to define rural and shortage areas, CMS could better ensure
                  access to care for Medicare and Medicaid beneficiaries by imposing
                  access requirements in addition to location requirements. In its
                  comments to GAO’s 1996 report, the Department of Health and Human
                  Services agreed that the shortcomings of the RHC certification process
                  would be best addressed by reviewing other factors, such as need and
                  community impact, in addition to the shortage designation and rural
                  location.


                  AGENCY COMMENTS
                  HRSA concurred with our recommendations that it should review
                  underserved designations that it has not updated in the last 3 years and
                  that HRSA should publish regulations to revise its shortage designation
                  criteria. HRSA also provided technical comments for which we made
                  revisions where appropriate.

OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         iii
                                                                                         Report Template Version = 03-01-05_rev.07




E X E C U T I V E                       S U         M M A R Y


                   CMS concurred with the recommendation that it issue regulations to
                   ensure that RHCs determined to be essential remain certified as RHCs.
                   CMS is further considering our recommendation that CMS should seek
                   legislative authority to require RHCs applicants to document need and
                   impact on access to care as a requirement to receiving certification as an
                   RHC.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We appreciate both HRSA’s and CMS’s response to our report. It is
                   important that HRSA is implementing an automated application and
                   review process that will reduce the review time for determining whether
                   areas meet the underserved criteria. It is also important that CMS is
                   committed to reissuing proposed and final regulations that would allow
                   it to terminate those clinics that do not meet the basic location
                   requirements unless they demonstrate that the clinics are essential
                   community providers for their service areas.

                   We continue to believe that requiring current and prospective RHCs to
                   provide additional evidence of community need would further the goal of
                   assuring that RHCs are directed and maintained in rural communities
                   with critical shortages of primary care providers. The establishment of
                   further criteria would help limit the creation of new RHCs in areas with
                   a concentration of viable providers but, more importantly, it would
                   encourage the establishment of RHCs in areas with unmet need.




 OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          iv
                                                                     Report Template Version = 03-01-05_rev.07




Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY ....................................
i


         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   RHCs located in noneligible areas . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                   Shortage designations are untimely. . . . . . . . . . . . . . . . . . . . . . . . . 8 


                   Criteria continue to cause problems. . . . . . . . . . . . . . . . . . . . . . . . . 9 


                   Current criteria result in RHC concentration . . . . . . . . . . . . . . . . 11 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                   A: RHCs by Rural-Urban Continuum Codes. . . . . . . . . . . . . . . . . 19 


                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                                                                                        Report Template Version = 03-01-05_rev.07




Δ   I N T R O D U C T I O N                                                  



                  OBJECTIVE
                  To follow up on previous Office of Inspector General (OIG)
                  recommendations concerning the appropriate location of Rural Health
                  Clinics (RHC).


                  BACKGROUND
                  In 1996, OIG issued a report that concluded that RHCs might not be
                  located in appropriate locations. Based on these findings, OIG
                  recommended that RHCs be located in shortage areas with accurate and
                  up-to-date designations and that RHCs no longer meeting these criteria
                  should lose their certification. Finally, OIG recommended that in
                  addition to meeting the rural underserved designations, the Centers for
                  Medicare & Medicaid Services (CMS) should require RHCs to document
                  health care needs and anticipate how their establishment will impact
                  this need in their community. Because of this report and a report
                  issued by the Government Accountability Office (GAO), Congress
                  required, as part of the Balanced Budget Act of 1997 (BBA), several
                  changes to improve the RHC Program, which is codified at section
                  1861(aa) of the Social Security Act. This inspection reviews the RHC
                  Program since passage of this law.
                  The Rural Health Clinic Program
                  The Rural Health Clinic Services Act of 1977 (RHC Act), Public
                  Law 95-210, authorized the RHC Program in 1977. According to House
                  Report No. 95-548(I), the purpose of the RHC Program was to address
                  the problem of an inadequate supply of physicians serving Medicare and
                  Medicaid beneficiaries in rural areas. At the time, many rural
                  communities were unable to attract or sustain primary care physicians,
                  and had come to rely on mid-level practitioners, such as physician’s
                  assistants and nurse practitioners for primary care services. However,
                  Medicare and Medicaid did not generally reimburse the services
                  delivered by these nonphysician practitioners. The RHC Act authorized
                  Medicare and Medicaid reimbursement for services provided by
                  nonphysician primary care practitioners in RHCs.

                  For operating in rural underserved areas, the RHC Act provides clinics
                  certified as RHCs a payment rate for the care of Medicare beneficiaries
                  equal to the lower of their reported costs or a predetermined capped
                  amount. The capped amount in 2003 was $66.72 per encounter,
                  compared to $51.13 for a typical office visit to a physician.

OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          1
                                                                                          Report Template Version = 03-01-05_rev.07




I N T R O D        U C T           I O N


                    CMS is responsible for overseeing the RHC Program. To be eligible,
                    applicants must meet two criteria related to location. First, the clinic
                    must be located in an area that meets the RHC Act’s definition of rural.
                    Second, the RHC Act requires that the clinic be located in a Health
                    Resources and Services Administration (HRSA) designated shortage
                    area.

                    As of May 2003, there were 3,340 RHCs located in 1,500 counties in
                    44 States. The number of RHCs in the States ranged from Texas with
                    the most RHCs at 336, to Rhode Island with only 1 RHC. In calendar
                    year 2002, Medicare spent approximately $312 million and Medicaid
                    spent approximately $321 million on RHC services.1
                    Definition of Rural
                    Under the RHC Act, clinics applying for the RHC Program must not be
                    located in an urbanized area as defined by the Bureau of the Census
                    (Census).2 Census defines “urbanized areas” as those with a population
                    of over 50,000; consequently, CMS considers all areas with populations
                    under 50,000 as rural.

                    For the 2000 Census, Census established a new designation for
                    midsized areas to better distinguish the nation’s urban and rural areas.
                    In March 2002, Census issued final regulations to expand its definition
                    of “urban” to include all territory, population, and housing units located
                    within an:
                    o 	 urbanized area – areas with populations of 50,000 or more, or

                    o 	 urban cluster – areas with populations of more than 2,500, but
                          less than 49,999.
                    These new, broader definitions do not apply to the RHC Program
                    because the language of the RHC Act specifies that clinics cannot be
                    located in an “urbanized area” and makes no mention of “urban
                    clusters.”
                    Definition of a Shortage Area
                    The RHC Act also requires that clinics be located in a HRSA designated
                    shortage area. HRSA is responsible for identifying areas with shortages
                    of primary care physicians and health care services. HRSA designates
                    shortage areas for the purpose of directing placement of providers or
                    program funding for nearly 30 departmental programs focused on
                    alleviating access problems in such locations.




 OEI-05-03-00170    S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          2
                                                                                          Report Template Version = 03-01-05_rev.07




I N T R O D        U C T           I O N


                    For the RHC Program, CMS relies on two of HRSA’s methods to identify
                    shortage areas. One designates Health Professional Shortage Areas
                    (HPSA), and the other designates Medically Underserved Areas (MUA).

                    In applying the HPSA designation, HRSA identifies areas in which
                    there is a shortage of medical professionals in relation to the population
                    or which contains a population group that HRSA determines has such a
                    shortage. HRSA developed the HPSA system in 1978 as a way to
                    designate areas for placement of National Health Service Corps
                    providers. Section 332 of the Public Health Service Act requires HRSA
                    to review HPSA designations annually. HRSA implemented this
                    requirement by requiring HPSAs to provide new data every 3 years. As
                    a result, in any given year HRSA reviews new data for one-third of the
                    HPSAs.

                    In 2002, Congress passed the Health Care Safety Net Amendments of
                    2002 (Public Law 107-251), which amended section 332 of the Public
                    Health Service Act to provide an automatic HPSA designation for clinics
                    meeting the “charges for services” requirements. To meet the “charges
                    for services” requirements, a clinic must: (1) prepare a fee schedule
                    with adjustments made on the basis of the patient’s ability to pay, and
                    (2) not deny health services to individuals because of inability to pay.
                    For an RHC to obtain automatic HPSA designation, HRSA requires an
                    RHC to submit a Certificate of Eligibility and reflect “charges for
                    services” requirements in its Policies and Procedures Manual. An
                    automatic HPSA designation is valid for 6 years and is renewable for
                    additional 6-year periods.

                    The MUA method identifies areas not receiving adequate health
                    services for a variety of reasons, including provider shortages.
                    Developed in 1973, based on an amendment to the Public Health
                    Service Act, HRSA uses the MUA designation primarily to identify
                    areas eligible to participate in the Community Health Center program.
                    HRSA calculates an Index of Medical Underservice using four factors.
                    These four factors are: (1) primary care physician-to-population ratio,
                    (2) infant mortality rate, (3) percentage of population below the poverty
                    level, and (4) percentage of the population aged 65 and older.

                    In addition, HRSA may designate areas as underserved at the request
                    of a State’s Governor. The Governor can select these areas based on
                    unusual local conditions.

                    States are responsible for submitting a list of MUAs and Governor-
                    designated areas to HRSA for approval. HRSA is responsible for

 OEI-05-03-00170    S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          3
                                                                                          Report Template Version = 03-01-05_rev.07




I N T R O D        U C T           I O N


                    surveying and updating HPSAs. Unlike HPSAs, MUAs and Governor-
                    designated areas are not subject to statutory requirements for regular
                    review and update.

                    In 1996, Congress passed the Health Centers Consolidation Act
                    requiring HRSA to consolidate its HPSA and MUA definitions into one
                    system known as “medically underserved population.” On
                    September 1, 1998, HRSA published in the Federal Register a Notice of
                    Proposed Rulemaking [62 Federal Register 46537-46555], proposing
                    updates to the HPSA and MUA designations. This update would have
                    required a 3-year review for all shortage area designations. However,
                    according to HRSA, due to the volume of comments received expressing
                    concerns that the proposed new methods would eliminate many
                    providers currently participating in departmental programs, it
                    withdrew the proposed regulations.

                    As of June 2005, HRSA has yet to issue final regulations on the
                    shortage-designation process. HRSA has not issued any further
                    guidance regarding shortage designations.
                    Previous Assessments of the RHC Program
                    In July 1996, OIG issued a report entitled “Rural Health Clinics:
                    Growth, Access, and Payment” (OEI-05-94-00040). The report
                    concluded that RHCs might not be located in true shortage areas
                    because some designations were outdated or inappropriate.
                    Additionally, the report recognized that, as intended by the law, RHCs
                    might provide increased access to care in some areas. However, there
                    were no reliable data to measure the effect of RHCs on access to care.
                    Based on these findings, OIG recommended that CMS, along with
                    HRSA, modify the certification process to increase State involvement
                    and ensure the strategic placement of RHCs. OIG also recommended
                    that RHCs be located in shortage areas with accurate and up-to-date
                    designations and that those no longer meeting the criteria lose their
                    certification. Finally, OIG recommended that in addition to meeting the
                    rural underserved designations, CMS should require RHCs to document
                    the need for health care services and anticipate how their establishment
                    will impact the communities’ need.

                    CMS and HRSA agreed with most of OIG’s recommendations. CMS
                    indicated that it would rely on HRSA to publish new regulations to
                    revise the current shortage area designation system. HRSA accepted
                    this responsibility and stated that, in addition, it would collaborate with


 OEI-05-03-00170    S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          4
                                                                                          Report Template Version = 03-01-05_rev.07




I N T R O D        U C T           I O N


                    CMS in determining how to increase State involvement in the
                    certification process.

                    In November 1996, GAO issued a report that echoed many of the OIG’s
                    findings and recommendations. “Rural Health Clinics: Rising Program
                    Expenditures Not Focused on Improving Care in Isolated Areas”
                    (HEHS-97-24) stated that the RHC Program had grown rapidly, but not
                    in locations where Medicare and Medicaid populations were having
                    difficulty obtaining primary care. GAO found the growth was
                    concentrated in areas with established health care systems and RHCs
                    were not decreasing the distance patients traveled to obtain health care.
                    GAO concluded that broad eligibility criteria allowed RHCs to
                    proliferate in areas where the need was minimal.

                    As did OIG, GAO recommended a legislative change that would restrict
                    RHC certification to clinics in areas either with no other Medicare or
                    Medicaid providers or to clinics demonstrating that existing providers
                    will not accept new Medicare or Medicaid patients and that the clinics
                    will expand access to these patients. In response, the Secretary of the
                    Department of Health and Human Services (HHS) stated that current
                    RHC Program eligibility criteria for defining rural and underserved
                    areas do not go far enough to ensure that the program is directed and
                    maintained in rural communities with critical shortages of primary care
                    providers. The Secretary requested that HRSA improve its designation
                    process for HPSAs and MUAs and require clinics applying for RHC
                    certification to provide documentation of the need for health care
                    services in the target community.
                    Improvements to the RHC Program: The Balanced Budget Act of 1997
                    Based on OIG and GAO work on the RHC Program, Congress amended
                    the provision of the RHC Act that allowed RHCs to remain permanently
                    designated (known as the “grandfather” provision) even if they no longer
                    met the rural and shortage area criteria. This change required CMS to
                    establish criteria to determine if those RHCs no longer meeting location
                    requirements continue to be essential to the delivery of primary health
                    care. The BBA also required that RHCs be located in areas that HRSA
                    has reviewed within the previous 3-year period.

                    In December 2003, CMS issued regulations implementing the changes
                    required by the BBA in its final regulations for RHC certification
                    [68 Federal Register 74791-74818 (12/24/2003)]. CMS withdrew the
                    final regulations based on a provision in the Medicare Prescription
                    Drug, Improvement, and Modernization Act (MMA) of 2003 (Public Law

 OEI-05-03-00170    S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          5
                                                                                          Report Template Version = 03-01-05_rev.07




I N T R O D        U C T           I O N


                    108-173), which required that regulations take no longer than 3 years
                    from the time an agency proposes them until they are final. CMS is
                    planning to issue a new Notice of Proposed Rulemaking requesting
                    public comments on regulations implementing the changes required by
                    the BBA.


                    METHODOLOGY
                    Data Collection
                    For our data collection, we pulled information on all certified RHCs
                    active as of May 2003 using CMS’s Online Survey Certification and
                    Reporting (OSCAR) system. To determine an RHC location, we
                    obtained address information from OSCAR for all active RHCs. We also
                    obtained address information for general short term hospitals, including
                    Critical Access Hospitals (CAH) and Federally Qualified Health Centers
                    (FQHC). FQHCs are clinics receiving grants under the Public Health
                    Service Act or meeting the requirements for receiving a grant. We also
                    reviewed Medicare’s Participating Physician Directory for selected
                    counties.

                    From Census, we obtained files from the Topologically Integrated
                    Geographic Encoding and Referencing system for each of the counties in
                    which an RHC was located. Using the Geographic Information System
                    of SAS®, we geographically encoded the physical location of RHCs,
                    general short term hospitals (including CAHs), and FQHCs. This
                    encoding process determines the latitude and longitude of the location
                    based on the street address, city, State, and zip code.
                    Analysis
                    To determine if RHCs meet the rural location requirement, we created
                    county maps from the Topologically Integrated Geographic Encoding
                    and Referencing files that displayed the urbanized areas. We also
                    plotted urban clusters for 1,500 counties in which RHCs are located.
                    Using the geographically encoded information, we plotted the location of
                    RHCs, general short term hospitals (including CAHs), and FQHCs
                    relative to urbanized areas and urban clusters in a county.

                    To determine whether RHCs are located within shortage-designation
                    areas, we accessed HRSA’s Geospatial Data Warehouse, which captures
                    the designation of underserved areas. Using this data warehouse, we
                    were able to determine whether a clinic was located in a HPSA, MUA,
                    Governor-designated area, or a combination of the three. Also using
                    HRSA data, we were able to determine the most recent certification of

 OEI-05-03-00170    S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          6
                                                                                          Report Template Version = 03-01-05_rev.07




I N T R O D        U C T           I O N


                    the shortage area for HPSAs, MUAs, and Governor-designated areas.
                    We also obtained the current list of RHCs that have received automatic
                    HPSA designation based on the Health Care Safety Net Amendments of
                    2002.

                    To compare the location of RHCs in relation to other primary care
                    providers in a service area, we plotted the addresses of our selected
                    primary care provider types within a 25-mile radius. We selected
                    25 miles because it is one of the tests HRSA applies to determine a
                    service area. This mileage translates into approximately 30 minutes of
                    travel time accessing interstates and primary roads. Although HRSA
                    also calculates 30 minutes travel time using other road conditions3, we
                    selected the 25-mile test as a reasonable proxy for a service area.

                    To understand the complexities of the RHC Program’s location criteria,
                    we reviewed all relevant laws and regulations. We also interviewed
                    staff in CMS central office, selected CMS regional and State officials,
                    and HRSA officials about the RHC Program.
                    Scope
                    This inspection only reviewed RHC Program eligibility criteria related
                    to the location of clinics. We did not review other criteria RHCs must
                    meet to receive RHC status.

                    In our analysis of the number of primary health care sites within a
                    25-mile service area, we only included short term hospitals (including
                    CAHs), FQHCs, and RHCs to provide a conservative estimate of the
                    types of primary care facilities available in the area. Our estimates are
                    conservative in that we did not analyze the number of primary care
                    practitioners (i.e., doctors, nurse practitioners, or physician assistants)
                    at each of the provider sites in an area.
                    We did not attempt to measure the adequacy of service in an area or to
                    evaluate how an area’s service compared to HRSA’s shortage-
                    designation criteria. Finally, we did not attempt to determine whether
                    RHCs had an impact on access to health care in rural underserved
                    areas, as it was beyond the scope of our study.

                    Our review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-05-03-00170    S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          7
                                                                                             Report Template Version = 03-01-05_rev.07




Δ        F I N D I N G S 




Two hundred seventy-nine RHCs are located in                                                 Sixty-one percent (169) of these
  areas HRSA has not designated as shortage                                                  RHCs are located in areas that
 areas or Census has designated as urbanized                                                 HRSA has not designated as
                                                                                             shortage areas. The remaining
                                       areas
                                                                                             39 percent (110) are located in
                                                                                             urbanized areas defined by Census.

                       While some of these RHCs will meet the eligibility criteria once HRSA
                       reviews and continues the area’s shortage designation, other RHCs will
                       have to seek an exception for continued certification as an essential
                       provider. CMS published regulations that would have allowed RHCs
                       that no longer meet the eligibility criteria to apply for exceptions as
                       essential providers. However, CMS withdrew these regulations because
                       of a conflict with the MMA.

                                                          Although the BBA requires that
Another 946 are located in shortage-designated            RHCs be located in shortage areas
 areas that HRSA has not reviewed or updated              that are reviewed every 3 years, we
                          within a 3-year period          found that 28 percent of RHCs are
                                                          located in areas where status has
                       not been reviewed within this timeframe. Since HRSA’s designations
                       for some areas have not been reviewed within a 3-year period, it is
                       unknown whether these areas still satisfy criteria for a qualifying
                       shortage designation for the RHC Program.
                       HRSA has not reviewed 94 percent of the MUAs where RHCs are located
                       within the previous 3-year period.
                       Ninety-four percent of MUAs with RHCs do not meet the 3-year update
                       requirement set forth in the BBA. HRSA does not have a required
                       schedule for updating MUAs.

                       HRSA has not reviewed 59 percent of all MUA designations with RHCs
                       in over 25 years. The length of time since an area’s original MUA
                       designation raises questions about the area’s continued need for such a
                       designation.
                       HRSA has not reviewed 26 percent of HPSA designations where RHCs are
                       located within the required 3-year period.
                       Since January 2001, HRSA has not established or reviewed 26 percent
                       of the HPSAs wherein RHCs are located. HRSA fails to meet the BBA’s
                       requirement for HPSA updates and does not comply with its own HPSA-
                       specific requirement for 3-year updates. HRSA requires each HPSA to


     OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          8
                                                                                            Report Template Version = 03-01-05_rev.07




F   I N D I N G        S


                      submit an updated application every 3 years for review, yet 26 percent
                      had not been reviewed during the required 3-year period.

Rural and shortage criteria do not effectively            Problems with the RHC program
                                                          were noted in the past and
   measure the areas that are truly rural and
                                                          unsuccessful attempts were made
                                underserved
                                                          by CMS and HRSA to correct them.
                      Our recent work in this area indicates that these problems still exist.
                      CMS is limited by the RHC Act’s definition of rural.
                      Although most RHC locations are appropriate given the RHC Act’s
                      limited definition of rural, approximately 39 percent of RHCs are
                      located in areas that Census considers urban using its expanded
                      definition of urban areas. Only RHCs located in “urbanized areas,” as
                      defined by Census, would not meet the statutory requirement to be
                      certified as RHCs. All other RHCs, including RHCs located in areas
                      defined by Census as “urban clusters,” meet the statutory criteria to be
                      certified. Census uses the term “urbanized area” as only one component
                      of its definition of urban. The Census’s complete definition of urban also
                      includes “urban clusters,” which are areas with a population between
                      2,500 and 49,999.4
                      Applying other Federal criteria that measure urban influence reveals
                      that RHCs are currently located in areas with significant urban
                      influence. For example, in defining rural for the Medicare program,
                      CMS has consistently used the definition of a Metropolitan Statistical
                      Area as established by the Office of Management and Budget (OMB).
                      Using OMB’s definition, 25 percent of current RHCs are located in
                      metropolitan areas that would not qualify as rural under OMB’s
                      criteria.
                      Using the Department of Agriculture’s Rural-Urban continuum codes,
                      we found 834 RHCs located in metropolitan areas. Of these RHCs,
                      216 are located in counties in metropolitan areas with populations in
                      excess of 1 million, 317 are located in counties in metropolitan areas
                      with populations between 250,000 and 1 million, and 301 are located in
                      counties in metropolitan areas with populations under 250,000. At the
                      other end of the spectrum, we found only 413 RHCs, or 12 percent of all
                      RHCs, located in completely rural counties not adjacent to a
                      metropolitan county. These codes distinguish “metropolitan (metro)
                      counties by the population size of their metro area, and nonmetropolitan
                      (nonmetro) counties by degree of urbanization and adjacency to a metro



    OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                          9
                                                                                            Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                      area or areas.”5 See Appendix A for a complete breakdown of RHCs
                      categorized by Rural-Urban continuum codes.
                      CMS relies on HRSA’s health care shortage-designation systems which do
                      not adequately measure underservice.
                      According to GAO, the accuracy of HRSA’s shortage-designation
                      systems used for RHC certification is questionable for two reasons.
                      First, HRSA’s systems do not consider all primary care resources when
                      determining the need for additional practitioners. Second, the MUA’s
                      Index of Medical Underservice does not yield current and effective
                      information on an area’s supply of health care services.

                      HRSA has yet to revise the shortage-designation systems, despite the
                      fact that both the Health Centers Consolidation Act of 1996 and the
                      BBA require such improvements. HRSA’s 1998 proposed regulations
                      would have implemented the required changes, but HRSA withdrew
                      those proposed regulations and has yet to release a new rule. As a
                      result, the RHC Program is still relying on shortage-designation
                      systems that do not accurately reflect the availability of health care
                      professionals and medical services in an area.
                      The ratio HRSA uses to measure physician shortages overstates them.
                      Although the RHC Act expanded the definition of primary care provider
                      to include nurse practitioners and physician’s assistants, the current
                      MUA and HPSA systems’ ratio of practitioners-to-population excludes
                      these mid-level practitioners from its calculations. Originally, HHS
                      planned to include these practitioners as 0.5 equivalent of a full-time
                      physician, but excluded them because the scope of practice varied so
                      much by State. GAO’s 1995 report found that because HRSA’s
                      methodology omits nurse practitioners and physician’s assistants, the
                      measure might overstate the need for additional physicians in HPSAs
                      by 50 percent or more. In 1998, HRSA proposed once again to include
                      these health care professionals as 0.5 of a full-time physician in the
                      ratio, but as noted above, withdrew the proposed rule.
                      HRSA’s Index of Medical Underservice has been shown to be an ineffective
                      measure of the availability of medical services. According to GAO’s
                      1995 report, HRSA’s Index of Medical Underservice used to designate
                      MUAs is ineffective for two reasons. First, the methodology HRSA used
                      to develop the index is not based on “a clearly defined concept of medical
                      underservice.”6 Second, HRSA’s system for designating an MUA
                      compares an area’s current conditions to a median score on an index of
                      medical underservice set in 1975. The threshold score for the MUA

    OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         10
                                                                                              Report Template Version = 03-01-05_rev.07




F   I N D I N G          S


                        status has remained the same, except for minor changes made in
                        1981 when HRSA adjusted the weights for the infant mortality rate and
                        population-to-physician ratio.

                        MUAs based on a score that uses standards from 1975 may not
                        accurately reflect the availability of medical services in an area. For
                        example, an analysis done by GAO found that less than half of the
                        counties designated by HRSA as MUAs would qualify as MUAs using
                        1990 data.

                     Current eligibility criteria result in RHC       CMS’s current eligibility
                                                                      criteria do not require
                  participation in areas with already existing
                                                                      new RHCs applicants to
                                 health care delivery systems
                                                                      demonstrate how they
                        will improve access for Medicare and Medicaid beneficiaries.
                        Consequently, RHCs can easily establish themselves near existing
                        medical infrastructure. For example, 90 percent of RHCs had three or
                        more primary care provider sites within 25 miles of their locations. Ten
                        percent of RHCs had 21 or more primary care sites located within
                        25 miles. These primary care sites include general short term hospitals
                        (including CAHs), FQHCs, or other RHCs. We found that only 3 percent
                        of RHCs have no other primary care within 25 miles of their locations.
                        The following figure demonstrates an example of the concentration of
                        RHCs and other primary care providers.

                        Figure 1, representing an actual county, demonstrates an example of
                        the concentration of short term hospitals (including CAHs), FQHCs, and
                        RHCs. In this example, there are 13 short term hospitals, 26 RHCs,
                        and 12 FQHCs located in the county, which has an area of
                        approximately 6,000 square miles. All RHCs are located within 25
                        miles of five or more primary care sites.




    OEI-05-03-00170     S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         11
                                                                                                        Report Template Version = 03-01-05_rev.07




   F    I N D I N G                S



Figure 1
Example of concentration of RHCs, FQHCs,
and hospitals




       Source: Office of Inspector General analysis of OSCAR and Census data, 2005



                                  Another example is a county that has a total population of
                                  approximately 62,000, with 7 primary cities ranging in population from
                                  700 to 8,000. Approximately 10,000 of the total county’s population are
                                  Medicare eligible and there are approximately 6,000 Medicaid
                                  beneficiaries. The county has seen a 15.5 percent increase in population
                                  from 1990 to 2000. HRSA designated the county as a HPSA that was
                                  last updated in September 2001.

                                  Using OSCAR data, we identified 13 RHCs located across the
                                  approximate 700 square miles of the county. These clinics are in
                                  addition to 110 primary care physicians with 1 or more locations within
                                  the county and 4 general short-term hospitals. The average distance
                                  between each RHC in the county is 15.5 miles considerably less distance
                                  than the traditional 25-mile or 30-minute travel time test HRSA

        OEI-05-03-00170           S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         12
                                                                                            Report Template Version = 03-01-05_rev.07




F   I N D I N G        S


                      employs to determine appropriate service areas. All 13 RHCs have at
                      least 3 other RHCs located within 15 miles of their locations.




    OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         13
                                                                                        Report Template Version = 03-01-05_rev.07




Δ   R E C O M M E N D A T I O N S                                                           





                  The RHC Program’s criteria related to location are not specific enough
                  to ensure that the program’s outcomes coincide with its goal to provide
                  increased access to care for those Medicare and Medicaid beneficiaries
                  living in rural communities with a shortage of primary care providers.
                  Congress specifically created the RHC Program to benefit areas where
                  population densities were insufficient to attract and retain physicians.
                  Yet, it appears the current rural and shortage definitions may not direct
                  placement of RHCs to areas of greatest need or prevent the addition of
                  RHCs in areas with sufficient care.
                  Our analysis, as well as the 1996 OIG and GAO evaluations of the RHC
                  Program, demonstrates that the RHC Program’s basic eligibility
                  requirements related to location may not address issues of Medicare and
                  Medicaid beneficiaries’ underservice in the way Congress intended. As
                  it stands, CMS provides no quantifiable assurance that the Federal and
                  State dollars spent each year on the RHC Program improve access to
                  care in underserved areas.

                  The efforts of Congress, CMS, and HRSA to improve the RHC eligibility
                  criteria have been unsuccessful. There are still issues related to the
                  effectiveness of the shortage and rural location criteria resulting in
                  RHCs participation in some service areas with extensive networks of
                  health care providers.
                  Recommendations for HRSA

                  HRSA should review the underserved designations for the areas that have
                  not been updated in the last 3 years.
                  The RHC Program’s success in providing care to the rural underserved
                  depends on HRSA’s actions to review and update its shortage
                  designations. Specifically, we recommend that HRSA review the areas
                  with shortage designations more than 3 years old to assess the areas’
                  designations.

                  HRSA’s proposed rules of 1998 would have required a 3-year review of
                  all shortage designations to ensure that programs using these
                  designations receive accurate, updated information to make funding
                  decisions. Due to the importance of these designations to the RHC
                  program as well as to other departmental programs, HRSA should give
                  priority to the review of shortage areas older than 3 years.



OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         14
                                                                                            Report Template Version = 03-01-05_rev.07




R   E C O        M M E N D A T                       I O N               S


                      HRSA should publish regulations to revise its shortage-designation criteria.
                      To operate as effective eligibility criteria for the RHC Program, HRSA’s
                      shortage-designation methods need improvement. We recommend that
                      HRSA revise the designation methods’ criteria to improve the way it
                      identifies shortage areas. In this revision, HRSA should develop new
                      measures of health status and new methodologies for the designation
                      systems. Additionally, HRSA should implement the requirement to
                      review all designations every 3 years for all the programs that use the
                      HPSA and MUA criteria.
                      Recommendations for CMS
                      CMS should issue regulations to ensure that RHCs determined to be
                      essential providers remain certified as RHCs.
                      Over 7 years have passed since the enactment of the BBA and many of
                      the problems identified in the previous OIG and GAO reports continue
                      to exist. While we recognize that CMS published final regulations for
                      the RHC Program and had to withdraw them, the lack of regulations
                      may be allowing RHCs that no longer meet eligibility criteria to
                      continue to receive cost-based reimbursement.
                      CMS should seek legislative authority or administratively require RHC
                      applicants to document need and impact on access to health care in rural
                      underserved areas.
                      We believe the apparent ease with which the RHCs meet current
                      location criteria has created payment incentives to locate RHCs in
                      service areas that already have extensive health care delivery systems
                      for Medicare and Medicaid beneficiaries. Because current law limits
                      CMS’s ability to define rural and shortage areas, CMS could better
                      ensure access to care for Medicare and Medicaid beneficiaries by
                      requiring clinics to meet other RHC eligibility factors in addition to the
                      location requirements.

                      This recommendation is consistent with prior OIG and GAO
                      recommendations. In its comments to GAO’s 1996 report, HHS agreed
                      that the shortcomings of the RHC certification process would be best
                      addressed by reviewing other factors, such as need and community
                      impact, in addition to the shortage designation and rural location.
                      Despite this statement, CMS has not added additional eligibility criteria
                      for RHC certification. CMS has not developed any performance
                      measures related to RHC Program goals, making it difficult to assess
                      what impact, if any, RHCs have on improving beneficiaries’ access to
                      care.

    OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         15
                                                                                            Report Template Version = 03-01-05_rev.07




R   E C O        M M E N D A T                       I O N               S


                      The final regulations that CMS withdrew indicated that the agency
                      intended to implement our recommendation for some existing RHCs,
                      but not for new applicants. Section 4205(d) of the BBA requires CMS to
                      terminate RHC status for clinics no longer located in rural or
                      underserved areas, except for those RHCs that are determined to be
                      essential to the delivery of primary care. Under the regulations that
                      CMS withdrew, clinics receiving essential provider status would have
                      had to meet certain conditions designed to demonstrate how the clinic’s
                      presence affects the health care of the community. For example, an
                      RHC would have had to show that it is the only participating primary
                      care provider actively accepting and treating Medicare, Medicaid, and
                      low-income beneficiaries within 30 minutes travel time, or that it treats
                      a majority of these beneficiaries compared to other providers in close
                      proximity, including other RHCs.

                      We believe that requiring current and prospective RHCs to provide
                      additional evidence of community need would further the goal of
                      assuring that RHCs are directed and maintained in rural communities
                      with critical shortages of primary care providers. The establishment of
                      further criteria would help limit the creation of new RHCs in areas with
                      a concentration of viable providers, and more importantly, it would
                      encourage the establishment of RHCs in areas with unmet need.


                      AGENCY COMMENTS
                      HRSA concurred with our recommendations that it should review
                      underserved designations that it has not updated in the last 3 years and
                      that HRSA should publish regulations to revise its shortage-designation
                      criteria. HRSA also provided technical comments for which we made
                      revisions where appropriate.

                      CMS concurred with the recommendation that they should issue
                      regulations to ensure that RHCs determined to be essential remain
                      certified as RHCs. CMS is further considering our recommendation
                      that it should seek legislative authority to require RHCs applicants to
                      document need and impact on access to care as a requirement for
                      receiving certification as a RHC. See Appendix B for the full text of the
                      agency comments.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We appreciate both HRSA’s and CMS’s response to our report. It is
                      important that HRSA is implementing an automated application and

    OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         16
                                                                                            Report Template Version = 03-01-05_rev.07




R   E C O        M M E N D A T                       I O N               S


                      review process that will reduce the review time for determining whether
                      areas meet the underservice criteria. It is also important that CMS is
                      committed to reissuing proposed and final regulations that would allow
                      it to terminate those clinics that do not meet the basic location
                      requirements unless they demonstrate that the clinics are essential
                      community providers for their service areas.

                      We continue to believe that requiring current and prospective RHCs to
                      provide additional evidence of community need would further the goal of
                      assuring that RHCs are directed and maintained in rural communities
                      with critical shortages of primary care providers. The establishment of
                      further criteria would help limit the creation of new RHCs in areas with
                      a concentration of viable providers, and more importantly, it would
                      encourage the establishment of RHCs in areas with unmet need.




    OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         17
                                                                                        Report Template Version = 03-01-05_rev.07




Δ   E N D N O T E S                               





                     1 The reported Medicaid spending is underestimated because of
                     incomplete data.

                     2   Public Law 95-210.

                     3  HRSA standard uses 20 miles to approximate 30 minutes of travel
                     under normal conditions on primary roads and 15 miles for travel on
                     flat terrain or interstate highways.

                     4 An urban cluster consists of a contiguously settled core of census
                     block groups and census blocks with populations between 2,500 and
                     49,999.

                     5   http://www.ers.usda.gov/briefing/rurality/RuralUrbCon.

                     6 “Health Care Shortage Areas: Designations Not a Useful Tool for
                     Directing Resources to the Underserved” (GAO/HEHS-95-200,
                     September 1995), p. 50.




OEI-05-03-00170   S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         18
                                                                                                Report Template Version = 03-01-05_rev.07




    A   P   P E N D      I X            ~          A           





                  RHCs by Rural-Urban Continuum Codes

                                                                                                                   Rural Health
                                2003 Rural-Urban Continuum Codes                                                   Clinics

                                                                                                                                  216
                    County in metro area with 1 million population or more
                                                                                                                                  317
                    County in metro area of 250,000 to 1 million population

                                                                                                                                  301
                    County in metro area of fewer than 250,000 population
                    Nonmetro county with urban population of 20,000 or more,
                                                                                                                                  281
                    adjacent to a metro area
                    Nonmetro county with urban population of 20,000 or more,
                                                                                                                                  153
                    not adjacent to a metro area
                    Nonmetro county with urban population of 2,500-19,999,
                                                                                                                                  823
                    adjacent to a metro area
                    Nonmetro county with urban population of 2,500-19,999,
                                                                                                                                  588
                    not adjacent to a metro area
                    Nonmetro county completely rural or less than 2,500 urban
                                                                                                                                  248
                    population, adjacent to metro area
                    Nonmetro county completely rural or less than 2,500 urban
                                                                                                                                  413
                    population, not adjacent to metro area

                    Overall Total                                                                                             3,340
                  Source: Online Survey Certification and Reporting and Department of Agruculture Rural-Urban
                  Continuum Codes, 2004




OEI-05-03-00170           S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                           19
                                                                                            Report Template Version = 03-01-05_rev.07




    A   P   P E N D   I X           ~          B            





OEI-05-03-00170       S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         20

                                                                                            Report Template Version = 03-01-05_rev.07




    A   P   P E N D   I X           ~          B            





OEI-05-03-00170       S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         21

                                                                                            Report Template Version = 03-01-05_rev.07




    A   P   P E N D   I X           ~          B            





OEI-05-03-00170       S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         22

                                                                                            Report Template Version = 03-01-05_rev.07




    A   P   P E N D   I X           ~          B            





OEI-05-03-00170       S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         23

                                                                                              Report Template Version = 03-01-05_rev.07




    A G     E N   C Y      C O         M M E N T                           S
  Δ         A C K N O W L E D G M E N T S                                                           




                        This report was prepared under the direction of William C. Moran,
                        Regional Inspector General for Evaluation and Inspections in the
                        Chicago regional office, and Ann Maxwell, Assistant Regional Inspector
                        General. Other principal Office of Evaluation and Inspections staff who
                        contributed include:

                        Thomas Komaniecki, Project Leader

                        Madeline Francescatti, Program Analyst

                        Anna Fleming, Program Analyst

                        Natalie Coen, Program Analyst

                        Rupal Patel, Intern

                        Seema Dargar, Intern

                        Bambi Straw, Program Specialist

                        Tricia Davis, Director, Medicare & Medicaid Branch




OEI-05-03-00170         S TAT U S   OF THE   R U R A L H E A LT H C L I N I C P R O G R A M                                         24
